  U.S. DEPARTMENT OF COMMERCE
            Office of Inspector General




                 PUBLIC
                RELEASE


              ECONOMIC DEVELOPMENT
                    ADMINISTRATION

       Hurricane Andrew Disaster Assistance:
EDA Made Fast, Sound Project Selections But
Could Have Better Managed Problem Projects

        Audit Report No. ATL-8989-8-0001 / September 1998




                   Office of Audits, Atlanta Regional Office
U.S. Department of Commerce                                                                    Final Report ATL-8989-8-0001
Office of Inspector General                                                                                  September 1998

                                                       CONTENTS
                                                                                                                             Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION                .........................................................1

         Purpose and Scope of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

FINDING AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

         EDA GENERALLY MADE FAST, SOUND PROJECT SELECTIONS
         BUT COULD HAVE BETTER MANAGED PROBLEM PROJECTS . . . . . . . . . . . . . 3

         A. Awards Expedited and Projects Conceptually Sound . . . . . . . . . . . . . . . . . . . . . . . . 3

              EDA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

              OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

         B. Nine Construction Projects Experienced Significant Delays . . . . . . . . . . . . . . . . . . 6

              EDA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

         C. Delayed Projects Appeared Less Urgent Than Others Due to
            Location and Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

              EDA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

              OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

         D. EDA’s Poor Project Monitoring Exacerbated
            the Impact of Delayed Projects . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

              -- Required Grantee Performance Reports Were
                 Generally Not Obtained . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

              -- Few Site Visits Made to Problem Projects . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

              EDA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

              OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
U.S. Department of Commerce                                                                Final Report ATL-8989-8-0001
Office of Inspector General                                                                              September 1998


                                                                                                                         Page

       E. $13 Million in Disaster Monies Needlessly Tied Up . . . . . . . . . . . . . . . . . . . . . . . 19

           EDA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

           OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

       F. Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

           Funds to Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


APPENDIX I                   EDA’s Response to the Draft Report
U.S. Department of Commerce                                               Final Report ATL-8989-8-0001
Office of Inspector General                                                             September 1998

                                    EXECUTIVE SUMMARY

In August 1992, Hurricane Andrew struck south Florida with winds of up to 170 miles per hour,
devastating a 20-mile-wide path across south Dade County. The Congress responded to this and
other natural disasters by appropriating about a billion dollars to various federal agencies under
the Dire Emergency Supplemental Appropriations Act, including $80 million to Commerce’s
Economic Development Administration to make grants for disaster relief. Between 1992 and
1995, EDA received 69 Hurricane Andrew relief proposals requesting a total of more than $130
million and the agency funded 28 projects totaling $50.9 million.

The Congress placed few restrictions on EDA’s use of the disaster funds and instructed the
agency to “use all existing administrative flexibility to waive local match requirements and to
expedite the delivery of assistance to communities.” In fact, the relief money was appropriated as
no-year funding, which afforded EDA the flexibility to reprogram award funds if quickly-made
initial project selections proved to be problematic, effectively giving the agency a second chance
to best use the funds. To further enhance EDA’s ability to expedite grant awards, the Congress
appropriated $5 million to supplement the agency’s operating budget, of which about $3 million
was allocated by EDA to administer and manage Hurricane Andrew relief projects.

EDA’s Atlanta Regional Office, which was primarily responsible for administering and managing
the hurricane projects, did a good job of quickly selecting the 28 projects and, for the most part,
chose projects that were both sound in concept and appeared responsive to the economic
recovery needs of the area. EDA worked with local governments and other organizations to
prepare short- and long-term economic development plans, and then assisted them in identifying
and developing disaster assistance projects that were compatible with the plans. Agency officials
remained on-site in the Miami area for the duration of time needed to complete the project
development and selection phase, and made the 28 awards within a few months of completing the
planning phase. (See pages 3 through 6.)

Despite the agency’s commendable efforts in expediting the delivery of constructive disaster relief
assistance awards, nine projects turned out to be problematic, experiencing significant delays.
These projects were late in starting and slow in completion. Several of them may never be
finished. Delayed projects provide diminishing benefits for disaster recovery, and incomplete
projects afford little, if any relief. Those nine problem projects also unnecessarily tied up millions
of dollars that might have been put to better use for other disaster recovery purposes. (See pages
6 through 9.)

Our analysis of the delayed construction projects revealed two common traits: all but three were
located outside the direct path of the hurricane, and all nine were designed to mitigate or
accommodate the out-migration of businesses or enhance or encourage tourism in areas affected
by the storm, as opposed to repairing or replacing storm-damaged or inadequate buildings and
infrastructure. In contrast, all of the projects that proceeded to completion in a timely fashion
were located within the 20-mile wide path of destruction cut by Hurricane Andrew and were more
traditional repair-and-replace public works projects. Based on this, we concluded that the
location and purpose of the nine delayed projects rendered them less urgent than the others and
therefore more vulnerable to delay because they lacked sufficient local impetus to proceed on
their own. (See pages 9 through 14.)
                                                   -i-
U.S. Department of Commerce                                              Final Report ATL-8989-8-0001
Office of Inspector General                                                            September 1998

We found that the delays among the nine projects were not attributable to EDA. Nonetheless, the
adverse impact of the delays was exacerbated by the agency’s failure to take timely action to
eliminate or resolve the delays. This was due to the failure of regional officials to follow existing
policies and procedures for managing projects. EDA officials acknowledged the problem, but
contended that the agency had limited staff available to monitor the disaster relief grants. We
found, however, that the agency made little effort to follow even the most minimal monitoring
procedures, such as enforcing the requirement that grantees submit periodic status reports.
Moreover, some of the $5 million provided to supplement EDA’s operating budget could possibly
have been used to hire temporary employees or to contract out for additional oversight services.
Had EDA officials recognized the symptoms of problem projects early on, they might also have
been able to better focus the agency’s resources and financial leverage on assuring that those
projects were either started and completed on time or timely terminated so that the funds could be
made available for other disaster recovery purposes. (See pages 15 through 19.)

As of November 1997, there was about $13 million in unspent appropriations obligated to 11
hurricane projects, including 8 of the 9 problem projects discussed in this report and 3 other
projects that were completed with cost underruns. (See pages 19 through 21.)

In responding to the draft audit report, EDA indicated that the agency appreciated our
acknowledgment of its success in planning and expediting the awards, but otherwise disagreed
with our conclusion that the delays in project completions were associated with the location and
purpose of the projects, characterizing our observations as a coincidence. Instead, the agency
contends that the project monitoring and management problems were primarily caused by the lack
of staff and other resources. We do not agree with EDA’s assertions and have, therefore, made
no material changes from the draft audit report. EDA provided an update on the status of the
projects, which shows that, except for three ongoing projects, all other projects have either been
completed or terminated. EDA’s update also shows that $2,210,568 continues to be obligated to
five completed projects that should be deobligated. We have summarized the agency’s response
after the appropriate sections in this report and have included the agency’s complete response as
Appendix I.

We are recommending that EDA:

l   Continue its successful use of on-site planning and award selection for future disaster
    assistance efforts.

l   Ensure that its existing prescribed policies and procedures for managing and monitoring
    projects are followed in future disaster assistance efforts.

l   Develop supplemental policies and procedures for managing disaster relief projects that will
    assist the agency in identifying and more effectively monitoring those projects that are most
    vulnerable to delay.

l   Deobligate the $2,210,568 obligated to five completed projects.



                                                - ii -
U.S. Department of Commerce                                             Final Report ATL-8989-8-0001
Office of Inspector General                                                           September 1998

                                       INTRODUCTION

In August 1992, Hurricane Andrew struck south Florida with winds of up to 170 miles per hour,
devastating a 20-mile-wide path across south Dade County. At the request of Florida’s governor,
the President declared Dade County and three adjacent counties (Broward to the north, Collier to
the northwest, and Monroe to the south) as a major disaster area. In September 1992, the
Congress responded to this and other natural disasters by appropriating about a billion dollars to
various federal agencies under the Dire Emergency Supplemental Appropriations Act, including
$80 million to the Economic Development Administration to provide disaster relief assistance
around the country. Between 1992 and 1995, EDA received 69 proposals requesting a total of
more than $130 million for Hurricane Andrew relief projects; the agency funded 28 projects with
30 grants totaling $50.9 million.

Although much of the billion-dollar disaster appropriation was aimed at addressing the immediate
emergency needs of protecting life and property and providing food, shelter and other basic
services, the Congress intended that the EDA monies fund projects for longer term economic
recovery and growth. Specifically, the Congress appropriated the monies for EDA to use under
the authority of the Public Works and Economic Development Act’s Title IX grant program,
Special Economic Development and Adjustment Assistance, which gives the agency broad
authority and flexibility to fund long-term economic development projects.

The Congress placed few restrictions on EDA’s use of the disaster funds and instructed the
agency to “use all existing administrative flexibility to waive local match requirements and to
expedite the delivery of assistance to communities.” The relief money was appropriated as no-
year funding, which afforded EDA the flexibility to reprogram award funds if quickly-made initial
project selections proved to be problematic, effectively giving the agency a second chance to best
use the funds. To further enhance EDA’s ability to expedite grant awards, the Congress
appropriated $5 million to supplement the agency’s operating budget, of which about $3 million
was allocated by EDA to administer Hurricane Andrew relief projects.

                                    PURPOSE AND SCOPE

The purpose of our audit was to evaluate EDA’s effectiveness and efficiency in managing its
Hurricane Andrew assistance program, which was administered by the agency’s Atlanta Regional
Office. In particular, we examined EDA’s project selection process and its management and
monitoring of the projects funded. The findings and recommendations in this report focus on
issues that relate to EDA’s completing its Hurricane Andrew efforts and on lessons learned from
those efforts.

Audit field work was conducted from May through October 1997. We reviewed the legislative
history of the 1992 Dire Emergency Supplemental Appropriations Act, Public Law 102-368, to
determine the congressional intent of the EDA appropriation. We obtained information on each
of the 28 disaster recovery projects by reviewing project files and interviewing responsible
officials at EDA’s Atlanta Regional Office, the agency’s Washington headquarters, and various
grantees. We also relied to some extent on a March 1996 consultant report by Aguirre
U.S. Department of Commerce                                            Final Report ATL-8989-8-0001
Office of Inspector General                                                          September 1998

International, EDA’s Post-Disaster Assistance Program After Hurricane Andrew: Final Report,
which focused on an evaluation of EDA’s disaster recovery planning and project selection
process, and preliminary results of the projects’ impact. In addition, we reviewed all prior OIG
audit reports on the grantees that received disaster grants, which are listed below.

l   Metro Dade County, ATL-4624-3-0001, January 1993

l   Miami Capital Development, ATL-7104-5-0001, March 1995

l   Miami Downtown Development Authority, ATL-7103-5-0001, August 1995

l   Village of Key Biscayne, ATL-8586-6-0001, May 1996

l   Seminole Tribe of Florida, ATL-8585-6-0001, June 1996

l   Miami Downtown Development Authority, ATL-9297-7-0001, June 1997

We examined EDA’s internal controls as they relate to making grant awards and monitoring and
managing construction projects. We relied, to some extent, on certain EDA computer-generated
data, which we tested and validated.

In August 1998 we provided EDA with a draft audit report for review and comment. We have
summarized the agency’s response after the appropriate sections in this report and have included
the agency’s complete response as Appendix I.

Our audit was performed in accordance with generally accepted government auditing standards
and under authority of the Inspector General Act, as amended, and Department Organization
Order 10-13, dated May 22, 1980, as amended.




                                              -2-
U.S. Department of Commerce                                               Final Report ATL-8989-8-0001
Office of Inspector General                                                             September 1998

                              FINDING AND RECOMMENDATIONS

EDA GENERALLY MADE FAST, SOUND PROJECT SELECTIONS
BUT COULD HAVE BETTER MANAGED PROBLEM PROJECTS

EDA’s Atlanta Regional Office did a good job of quickly selecting the 28 projects for Hurricane
Andrew disaster relief grants and, for the most part, selected conceptually sound projects which
were responsive to the economic needs of the area. Nevertheless, nine construction projects
turned out to be problematic, experiencing significant delays; two of the nine were ultimately
terminated and several may never be finished.

The impact of the delays was exacerbated by EDA’s failure to recognize the problem projects and
take timely corrective action to eliminate or mitigate the delays. As a result, those projects are
unlikely to provide the anticipated relief and assistance to the Miami area, since delayed projects
provide diminishing benefits for disaster recovery and incomplete projects afford little or no relief.
EDA’s failure to manage the problem projects also unnecessarily tied up millions of dollars that
might have been put to better use for other disaster recovery project purposes. As of November
1997, there was about $13 million in unspent appropriations obligated to 11 hurricane projects,
which included 8 of the 9 problem projects and represented about 26 percent of the $50.9 million
in disaster funding. Spending the $13 million now on projects related to Hurricane Andrew, more
than six years after the hurricane, would most likely be ineffective and wasteful.

A. Awards Expedited and Projects Conceptually Sound

It was clear that EDA expedited its grant award process as the Congress intended. Within a few
months after receiving the September 1992 appropriation, the agency had awarded seven disaster
recovery planning grants totaling about $1.9 million to local governments and nonprofit
organizations. Those local governments and organizations, with EDA’s help, used the planning
grant monies to develop short- and long-term recovery plans, which the agency then used to make
its decisions on which projects to fund among the 69 proposals requesting a total of more than
$130 million.

As noted in the Aguirre International consultants’ report, which evaluated EDA’s disaster
recovery planning and project selection process, agency officials remained on-site in the Miami
area for the duration of time needed to see projects through the development and selection phase.
The agency team included planning, economic development, engineering, environmental, and
grant processing specialists who worked with local officials to identify and prioritize projects that
were compatible with the plans and responsive to the area’s economic recovery. The consultant’s
report recommended, and we agree, that EDA should continue these planning and selection
practices in future disaster efforts.




                                                -3-
U.S. Department of Commerce                                               Final Report ATL-8989-8-0001
Office of Inspector General                                                             September 1998

In the spring of 1993, the agency used the remaining $49 million of the $50.9 million to fund 21
projects, which included:

l   2 technical assistance and training programs totaling $800,000;

l   3 revolving loan funds totaling $7,500,000; and

l   16 construction projects totaling $40,700,000.

The two technical assistance grants funded consulting services for local businesses, and the three
revolving loan funds provided low-interest loans to help companies recover from the hurricane.
The 16 construction projects included a variety of relief initiatives, which can be placed into two
basic functional groups:

l   Seven of the projects were more traditional awards to repair or improve water and sewer
    systems or municipal and nonprofit organization facilities located in the direct path of the
    hurricane.

l   The other nine were designed to mitigate or accommodate the out-migration of
    businesses or to encourage tourism in areas affected by the storm.

The following is a list of the 16 Hurricane Andrew construction projects, including the name of
the grantee, the amount of the award, and a brief description of each project.


                           Hurricane Andrew Construction Projects
 Traditional Repair-and-Replace Public Works Projects:
           Grantee               Amount                        Project Description
 City of Homestead              $7,765,400    Design and construct expanded water and sewer system
 (2 grants)                                   to serve race car track and industrial park

 Florida City                     5,000,000   Replace and upgrade water treatment and distribution
                                              system for future growth

 Metropolitan Dade County         5,000,000   Install water and sewer mains along major highway for
                                              future growth

 Florida City                     2,865,000   Replace and expand municipal buildings, including city
                                              hall, police station, and community center

 City of Everglades               1,830,000   Improve water and sewer system disrupted by hurricane
 Goodwill Industries              1,500,000   Renovate and equip building to replace Homestead Air
                                              Force Base facilities destroyed by hurricane
 Village of Key Biscayne           750,000    Construct new storm drainage system to better
                                              accommodate flooding


                                                -4-
U.S. Department of Commerce                                                 Final Report ATL-8989-8-0001
Office of Inspector General                                                               September 1998


 Out-migration or Tourism-type Projects:

 Metropolitan Dade County         4,500,000   Improve infrastructure and construct new facilities for
                                              city zoo

 Miami Development                2,500,000   Renovate building for international trade center in
 Authority                                    downtown Miami

 Miami-Dade Community             2,000,000   Build business incubator in West Perrine
 College
 City of Hialeah                  1,500,000   Convert old train station into farmers’ market

 Miami-Dade Community             1,500,000   Renovate old building for business incubator in
 College                                      Homestead
 Center for Health                1,000,000   Renovate building for health industry incubator near
 Technologies                                 Miami International Airport
 City of Hialeah                  1,000,000   Renovate building for manufacturing training and
                                              research center
 Miccosukee Indian Tribe          1,000,000   Construct infrastructure for commercial and residential
                                              land development in Broward County
 Seminole Indian Tribe            1,000,000   Construct historical Indian village, plant nursery, and
                                              craft shop for tourists near Ft. Lauderdale

EDA Response

In response to the draft report, EDA stated that it appreciated the OIG’s acknowledgment of the
commendable work performed by its Atlanta Regional Office in expediting the delivery of
financial assistance awards in response to the Hurricane Andrew disaster. The agency discussed
its history of providing disaster assistance and its use of the various assistance programs to aid in
achieving long-term economic recovery in disasters. The agency stated that the prototype
application of EDA’s disaster program tools largely evolved in the last five years from EDA
experience in South Florida in response to Hurricane Andrew and further elaborated on the
specifics of its planning efforts. The response states:

       “The purpose of this strategic plan was not to repair or replace what existed before
       the disaster, but to use the disaster as an opportunity to evaluate and prioritize
       what the community needed to do to sustain its economic base, safeguard its jobs
       and indeed enhance economic growth, wherever in the county they needed to
       make investments to get it done.”

EDA pointed out that some projects were located in areas that experienced physical damage and
some were located outside of the damaged areas, but that all addressed the economic dislocation
caused by the disaster and represented either new development or enhancements or improvements
beyond what existed before the disaster. The agency said that Dade County was already suffering


                                                 -5-
U.S. Department of Commerce                                            Final Report ATL-8989-8-0001
Office of Inspector General                                                          September 1998

from a double digit rate of unemployment from recent airline and bank failures and experiencing
an economic chill from the impending closure of Homestead Air Force Base. EDA states that the
hurricane, EDA’s planning grants, and the Agency’s technical assistance helped Dade County
connect opportunity with strategic action.

OIG Comments

We agreed that EDA’s strategic plan in response to Hurricane Andrew appeared to be a good
one. EDA’s ability to assist in the economic problems caused by the hurricane and, at the same
time, address the area’s economic problems caused by other adverse business conditions is
noteworthy. We also note, however, that all of the projects funded using the Dire Emergency
Supplemental Appropriations Act monies had to relate to timely assisting the economic recovery
from the hurricane.

B. Nine Construction Projects Experienced Significant Delays

Although the technical assistance and revolving loan fund projects generally proceeded in a timely
fashion, we found that 9 of the 16 construction projects, accounting for $15 million, or about 31
percent of the total EDA Hurricane Andrew relief funds, experienced significant delays. The table
below lists the nine problem construction projects for which completion was delayed by more than
12 months. Note that:

   l   Three projects were 16 to 20 months behind schedule at the end of our fieldwork and
       were still not completed;

   l   Two of the projects were not terminated until they were 14 and 15 months behind
       schedule;

   l   Three of the projects, although completed, were from 13 to 16 months behind schedule
       when completed; and

   l   One project was not due to be completed until after our review but was already 15 months
       behind schedule in getting construction started.




                                              -6-
U.S. Department of Commerce                                                                                      Final Report ATL-8989-8-0001
Office of Inspector General                                                                                                    September 1998




                                DELAYS AMONG NINE PROBLEM PROJECTS
                                              DESIGN COMPLETE                    CONSTRUCTION START                  CONSTRUCTION COMPLETE

                                                                 Months                                Months                               Months
                            Award                                Behind                                Behind                               Behind
 Grantee                     Date       Planned      Actual     Schedule       Planned      Actual    Schedule       Planned     Actual    Schedule

 Seminole Tribe                5/93       2/94         8/95          17         6/94         4/96           20         12/95     10/97          21

 Miami Center                  7/93       1/94         6/95          17         5/94         8/95           15         7/95      10/96**        15**

 Dade County Zoo               8/93       9/94         8/96          11         1/95         1/96           12         7/96      10/97          16*

 Miccosukee Tribe              8/93       5/94         N/A           42*        9/94        10/97           38*        3/96      10/97          20*

 Miami-Dade CC                 9/93       6/94         N/A           41*        10/94       10/97           37*        4/96      10/97          19*

 Hialeah                       10/93      6/94         9/95          15         10/94       11/95           13         4/96       5/97          13

 Hialeah                       10/93      6/94        11/95          17         10/94        2/96           16         4/96       8/97          16

 Health Tech                   2/94       10/94       1/96**         36         2/95        1/96**          44         8/96      1/96**         14**

 Miami-Dade CC                 2/95       4/95         N/A           30         7/96        10/97           15*        1/98       N/A           N/A


 * As of end of audit fieldwork on 10/31/97
 ** Award termination date



As a matter of policy1, EDA established five years as the maximum allowed time to complete a
project for it to be considered a timely response to the disaster. The following tables show the
disbursement history of each of the 17 grants that funded the 16 construction projects, divided
into two separate groups, timely projects and delayed projects. As shown, at the time of our
audit fieldwork, six of the eight timely projects, but only one of the nine delayed projects, were
100 percent disbursed and completed. As discussed later, the two Hialeah projects are now
complete, but both experienced significant, unnecessary delays.

                                              Disbursements for Timely Projects
                       Award                          Disbursements by Year                                          Total         Award         Percent
     Grantee            Date           1993           1994        1995               1996            1997           Disbursed      Amount       Disbursed
Goodwill                4/93     $        0       $1,500,000   $           0     $       0      $       0          $ 1,500,000    $ 1,500,000        100
Everglades              4/93              0                0       1,483,194       346,806              0            1,830,000      1,830,000        100
Homestead               4/93        357,000          408,400               0             0              0              765,400        765,400        100
Florida City            5/93              0                0         220,978     2,644,022              0            2,865,000      2,865,000        100
Florida City            5/93              0          933,555       3,637,389             0              0            4,570,944      5,000,000         91
Dade County            10/93              0                0               0     5,000,000              0            5,000,000      5,000,000        100
Key Biscayne            2/94        360,606          389,394               0             0              0              750,000        750,000        100
Homestead              11/94      5,432,570          449,563       1,044,193             0              0            6,926,326      7,000,000         99
Cumulative Totals               $6,150,176        $9,831,088   $16,216,842     $24,207,670 $24,207,670             $24,207,670    $24,710,400         98




           1
               Volume 65 of the Public Works Manual of Procedures, Section 2-16


                                                                           -7-
U.S. Department of Commerce                                                                  Final Report ATL-8989-8-0001
Office of Inspector General                                                                                September 1998




                                    Disbursements for Delayed Projects
                    Award                  Disbursements by Year                                  Total        Award   Percent
     Grantee        Date    1993         1994         1995             1996         1997        Disbursed      Amount Disbursed
Seminole             5/93      $0          $0     $       0        $ 836,012    $ 163,988       $1,000,000   $ 1,000,000   100
Miami Trade Ctr.     7/93       0           0             0          115,000      500,000          615,000     2,500,000    25
Dade Cty Zoo         8/93       0           0     1,301,905                0            0        1,301,905     4,500,000    29
MiccosukeeTribe      8/93       0           0             0                0            0                0     1,000,000     0
Miami-Dade CC        9/93       0           0             0                0            0                0     1,500,000     0
Hialeah             10/93       0           0             0          841,267      385,923        1,227,190     1,500,000    82
Hialeah             10/93       0           0             0          418,100      272,499          690,599     1,000,000    69
Hlth Tech.           2/94       0           0             0                0            0                0     1,000,000     0
Miami-Dade CC        2/95       0           0             0                0            0                0     2,000,000     0
Cumulative Totals              $0          $0    $1,301,905        $3,512,284   $4,834,694      $4,834,694   $16,000,000    30



The chart on the following page shows the cumulative annual percentage of obligations disbursed
after the first year of award for the project groupings reflected in the two tables above. As
shown, in the aggregate, the nine problem projects took about a year longer to start than the other
seven, and continued to lag significantly behind the latter group in progressing toward
completion. Specifically, four years after the award, EDA had disbursed 98 percent of the grant
funds on the timely projects, while a year later, the agency had disbursed only 30 percent on the
nine delayed projects.




                                                         -8-
U.S. Department of Commerce                                                               Final Report ATL-8989-8-0001
Office of Inspector General                                                                             September 1998



                                                      Disbursement Following Grant Award
                                                                                           98              98
          % of Obligated Funds Disbursed   100

                                            80
                                                                             66

                                            60

                                                              40
                                            40
                                                                                                           30
                                                 25
                                                                                           22
                                            20
                                                                             8
                                                 0             0
                                             0
                                                 1             2             3              4              5
                                                               Time (Years) After Award Date

                                                           Timely Projects        Delayed Projects


EDA Response

In response to the draft report, EDA did not disagree with the facts we presented demonstrating
the project delays or with our conclusion that 9 of 16 construction projects experienced
significant delays. However, as discussed in the following section, the agency disagreed with our
conclusion that the nine projects appeared less urgent than the other seven due to their locations
and purposes.

C. Delayed Projects Appeared Less Urgent Than Others Due to Location and Purpose

Our analysis of the delayed construction projects revealed two common traits: all but three were
located well outside the direct path of the hurricane, and all nine were designed to mitigate or
accommodate the out-migration of businesses or enhance or encourage tourism in areas affected
by the storm, rather than the more traditional projects to repair or replace storm-damaged or
inadequate buildings and infrastructure. In contrast, all of the projects that proceeded to
completion in a timely fashion were located within the 20-mile wide path of destruction cut by
Hurricane Andrew and were more traditional repair-and-replace public works projects. Based on
this, we concluded that the location and purpose of the nine delayed projects rendered them less
urgent than the others and therefore more vulnerable to delay because they lacked sufficient local
impetus to proceed on their own.




                                                                   -9-
U.S. Department of Commerce                                              Final Report ATL-8989-8-0001
Office of Inspector General                                                            September 1998

The following map shows the location of the nine problem projects relative to the path of the
hurricane that moved from east to west across the state and cut a 20-mile wide path north to
south. As noted above, all but three are located well outside the path of the storm’s destruction.

                              Locations of Nine Problem Projects




                                                                     ½ in = 10 mi




Ø   $4,500,000 Metropolitan Dade County Zoo
Ù   $2,500,000 Miami International Trade Center
Ú   $2,000,000 Miami-Dade Community College Business Incubator
Û   $1,500,000 Hialeah Farmers’ Market
Ü   $1,500,000 Miami-Dade Community College Business Incubator
ñ   $1,000,000 Center for Health Technology Health Industry Incubator
ò   $1,000,000 Hialeah Manufacturing Training and Research Center
ó   $1,000,000 Miccosukee Indian Tribe Land Development
ô   $1,000,000 Seminole Indian Tribe Historical Indian Village




                                               - 10 -
U.S. Department of Commerce                                             Final Report ATL-8989-8-0001
Office of Inspector General                                                           September 1998

The following are brief histories and observations of the nine delayed construction projects,
including a description of the purpose of each project and a summary of its progress as of
November 1997. None of these projects involved the repair or replacement of storm-damaged or
inadequate facilities.

ì Metropolitan Dade County
  Zoo

A $4.5 million grant was awarded to Dade County in August 1993 to improve the existing zoo
facilities by adding an auditorium. Although the zoo is located in the path of the hurricane, most
of the costs to repair storm-damaged facilities were borne by sources other than EDA and those
repairs were quickly completed. The 1996 EDA consultant’s report erroneously commends local
officials on rapidly completing the EDA portion of the work, despite the fact that it was only 30
percent complete at the time of our review. According to local officials, the project has been
experiencing engineering and design delays.

í Miami Downtown Development Authority
  International Trade Center

A $2.5 million grant was awarded to the Miami Downtown Development Authority in July 1993
to renovate a downtown building for use as an international trade center. The project site was
located 10 miles north of the hurricane’s path. Construction was unnecessarily delayed for
months while the grantee attempted to convince EDA to materially change the terms of the grant
agreement. This delay contributed to the project’s ultimate demise, which occurred after the
grantee realized that the trade center’s operator could not finance the center’s operations and
requested that the project be terminated for convenience. In a separate OIG audit of the project,
Miami Downtown Development Authority, No. ATL-9297-7-0001, June 1997, we concurred with
the termination decision but found that the city could not adequately support $1.4 million in
claimed costs. In the final analysis, this unsuccessful venture cost the taxpayers $615,000 for the
government’s share of costs incurred when the project was terminated.

î Miami-Dade Community College
  Perrine Business Incubator

A $2 million grant was awarded to Miami-Dade Community College in February 1995 to
construct a business incubator on its Perrine campus, which is located inside the hurricane’s path.
In July 1996, college officials asked EDA to transfer the award to Metropolitan Dade County
because the college could not afford to buy land needed for the facility or finance facility
operations. When we visited the project site during June 1997 -- more than two years after the
grant was awarded, the project had not been started and EDA had made no disbursements.
According to local officials, no actions were planned on the project at the time of our site visit.




                                               - 11 -
U.S. Department of Commerce                                             Final Report ATL-8989-8-0001
Office of Inspector General                                                           September 1998

ï City of Hialeah
  Farmers’ Market

A $1.5 million grant was awarded to the City of Hialeah in October 1993 to convert an old train
station into a farmers’ market. This project is located 20 miles north of the hurricane’s path. The
project was completed in July 1997, but only after the city delayed the project for about two years
to determine whether it was viable or really needed, although this was supposed to have been
determined at the time the award was made.

Ü Miami-Dade Community College
  Homestead Business Incubator

A $1.5 million grant was awarded to Miami-Dade Community College in September 1993 to
construct a business incubator on its Homestead campus, located in the path of Hurricane
Andrew. In May 1996, college officials asked EDA to permit them to reprogram the grant funds
to purchase audio, video, and computer equipment for a telecommunications training project
because there was no demand for another office facility on the campus. In June 1996, EDA
approved the request but required that the new project be completed by December 1997. At the
time of our visit in June 1997, however, college officials had not yet purchased any equipment
because they were uncertain about the need for the project, the primary issue to have been
determined at the time the award was made.

Ý Center for Health Technologies
  Health Industry Incubator

A $1 million grant was awarded to the Center for Health Technologies in February 1994 to
renovate a building owned by the City of Miami for an incubator for health technology companies.
The building was located 10 miles north of the hurricane’s path. The project began experiencing
problems when project officials failed to agree on leasing arrangements because the city was
apprehensive about having to reimburse EDA for the leasehold improvements in the event the
project did not come to fruition. EDA terminated the project in January 1996 before any project
costs were incurred or funds were disbursed. Unfortunately, this did not happen until four years
after the hurricane.

ò City of Hialeah
  Manufacturing Training and Research Center

A $1 million grant was awarded to the City of Hialeah in October 1993 to rehabilitate and convert
a warehouse into a manufacturing training and research facility. The warehouse is located about
20 miles north of the hurricane’s path. The project is now complete, and EDA has disbursed
about 70 percent of the total funds. However, as in the case of the other Hialeah project, the
farmers’ market, the city delayed the project for nearly two years to determine whether it was
really needed, although this was supposed to have been determined at the time the award was
made, and did not submit its first claim for costs until August 1996.



                                              - 12 -
U.S. Department of Commerce                                              Final Report ATL-8989-8-0001
Office of Inspector General                                                            September 1998

ó Miccosukee Indian Tribe
  Land Development Project

A $1 million grant was awarded to the Miccosukee Indian Tribe in August 1993 to build the
infrastructure necessary to develop commercial, industrial, and residential properties on a site
about 50 miles north of the hurricane’s path, which is located on National Park Service land.
When we visited the project site during June 1997, the project had not been started and no
federal funds had been disbursed because the Park Service objected to the development plan.

ô Seminole Indian Tribe
  Historical Indian Village

A $1 million grant was awarded to the Seminole Indian Tribe in May 1993 to renovate an arts and
crafts building and construct a living Indian village and plant nursery for tourists. This project is
located about 40 miles north of the path of Hurricane Andrew. The project was scheduled for
completion about 2-1/2 years from the grant award date, but was delayed because the tribe was
slow to finish the village’s design. No actual construction began until March 1996, a month after
the OIG began an audit of the project. In our audit report, Seminole Tribe of Florida, No. ATL-
8585-6-0001, June 1996, we concluded that EDA should not have made the grant because the
project was not needed for economic disaster recovery, and that the award should have been
terminated when the tribe failed to complete design work within a reasonable period of time.

EDA Response

In response to the draft report, EDA stated:

       “Contrary to the assertion of the OIG Draft Report, the ability of a disaster grantee
       to keep to its implementation schedule is not a function of the location of the
       project.”

EDA believes that it was a coincidence that six of the nine problem projects were not located in
the path of the hurricane, but did not comment on the similarities of the projects’ purposes. The
agency also believes that our conclusion that the location and purpose of the delayed projects
rendered them less urgent and therefore more vulnerable to delay due to the lack of local impetus,
contradicts our conclusion that EDA planning efforts resulted in projects sound in concept and
responsive to the area’s needs. EDA asserts that the agency is constantly working to reduce such
delays, which sometimes occur in:

       “ (1) programs that involve elements of acquisition, difficult site conditions,
       external regulatory issues and construction contracting or in (2) working with
       inexperienced or unsophisticated grantees (typically, nonprofits, small
       municipalities and Indian tribes).”




                                               - 13 -
U.S. Department of Commerce                                              Final Report ATL-8989-8-0001
Office of Inspector General                                                            September 1998

EDA stated that it cannot and will not refuse to meet legitimate needs because they may be more
difficult or require a longer time to complete, but goes on to say that the agency does not consider
delays as acceptable or that they are not noteworthy of special attention. While EDA concedes
that delayed projects is a valid issue warranting continued effort, the agency believes that it is
misleading to portray the issue as somehow extraordinary with respect to disaster-related projects
or due to any lack of urgency on the part of grantees.

The agency’s response also stated:

   “... EDA feels very strongly that the suggestion that tourism or other types of projects that
   respond to related disaster effects (other than direct physical damage) might be
   questionable, constitutes an opinion of the OIG that is not consistent with EDA and other
   Federal Agency policies and characterization of appropriate disaster response and
   mitigation projects. The EDA disaster program addresses economic damage (the
   disruption of economic activity that is or may be permanent and of such scope and
   magnitude that the structural economic base of an area is threatened) wherever it occurs,
   inside or outside of physically-damaged areas or in any industry sector. The Final Audit
   Report should make clear that the OIG is offering an opinion that is not only contrary to
   EDA and the Department of Commerce, but other Federal agencies involved with disaster
   response, recovery and mitigation.”

OIG Comments

We do not disagree that project delays may occur due to problems with land acquisition, difficult
site conditions, external regulatory issues, construction contracting or in working with
inexperienced or unsophisticated grantees. However, the fact cannot be ignored that those type
problems were overcome and did not affect the progress of the seven projects that repaired,
replaced or improved storm-damaged infrastructure. Therefore, other factors must have been in
play for the nine significantly delayed projects, and the common factors that we could identify
were “location” and “purpose.” They were not within the hurricane’s path and were not repair,
replacement or even improvement projects in area’s infrastructure. Therefore, we do not believe
that this was merely a coincidence, as EDA contends. Moreover, we continue to believe that
those factors made them less urgent and more vulnerable to delay due to the lack of sufficient
local impetus to overcome whatever obstacles laid in the way of timely completing the projects.

We did not suggest that “tourism or other types of projects that respond to related disaster effects
(other than direct physical damage) might be questionable.” Therefore, we did not contradict our
conclusion that EDA did a good job, for the most part, selecting conceptually sound projects
which were responsive to the economic needs of the area. As we discuss in the following section,
we are simply saying that the facts, as they relate to the Hurricane Andrew disaster program,
strongly indicate that, when EDA makes such awards, those type projects need closer monitoring
and management, including using the agency’s financial leverage, to assure that they are
completed in a timely manner.

As EDA is increasingly called upon to become more involved in Federal disaster relief efforts, it is
reasonable to expect that EDA will want to thoroughly assess and understand (1) the policies and

                                               - 14 -
U.S. Department of Commerce                                             Final Report ATL-8989-8-0001
Office of Inspector General                                                           September 1998

procedures that worked well and (2) the policies and procedures that experienced some problems
and require management’s attention. Ultimately, EDA must (1) review the untimely projects in
question, (2) ascertain their common traits, and (3) develop policies and procedures that will help
ensure that future projects do not encounter similar problems.

D. EDA’s Poor Project Management Exacerbated the Impact of Delayed Projects

Compounding the vulnerability to delay of the nine problem projects was the fact that EDA’s
Atlanta Regional Office did a poor job of ensuring that the projects were started and completed
on time. Implicit in the congressional directive to expedite the delivery of disaster relief
assistance, and reflected in EDA’s establishment of a 5-year completion period, was the
expectation that projects would be completed within a reasonably short period of time so that they
would be effective in helping the Miami area recover from the hurricane. While EDA did not
cause the delays, regional officials, in effect, exacerbated the untimely projects because they
adopted a passive approach toward monitoring the projects, including managing conditions that
could lead to delay. Consequently, as shown by the following examples, they were slow to
recognize problem projects and unable to effectively allocate and target limited staff resources.
Moreover, once problem projects were identified, agency officials did not act quickly to resolve
the problems.

EDA’s monitoring of these projects was haphazard at best. Regional officials did not follow EDA
procedures intended to systematically monitor projects, identify problems, and assure that projects
were not unnecessarily delayed. As a result, the agency was generally unaware that a project was
in trouble unless an inordinate amount of time had elapsed with no requests for reimbursement.

   Required Grantee Performance Reports Were Generally Not Obtained

EDA’s Public Works Manual of Procedures, Post Approval Project Management, provides
specific guidance and instructions to regional offices on managing public works projects. Section
1.T. of the manual states that the project manager “will require the grantee to submit a project
performance report for each calender quarter” that, among other things, notifies the agency of any
project delays and the reasons for them. This reporting requirement is also one of the standard
terms and conditions of EDA grant agreements. Nonetheless, among the 16 Hurricane Andrew
construction projects, grantee performance reports were submitted sporadically or not at all. This
was most evident for the nine problem projects, where reporting was notably sparse. As shown in
the following table, grantees on only two of the nine projects provided as many as a third of the
required number of reports, and the grantees on four projects submitted no performance reports
at all.




                                               - 15 -
U.S. Department of Commerce                                             Final Report ATL-8989-8-0001
Office of Inspector General                                                           September 1998

                                 History of Performance Reports
                                    on Nine Problem Projects

                                                          Reports    Reports
                                 Project
                                                           Due       Received
                    Ø Dade County Zoo                           16            0
                    Ù Miami Trade Center                        15            0
                    Ú Perrine Business Incubator                16           10
                    Û Hialeah Farmers’ Market                   14            4
                    Ü Homestead Business Incubator              10            6
                    Ý Health Industry Incubator                  9            0
                    Þ Hialeah Training Center                   14            3
                    ß Miccosukee Development                    16            0
                    à Seminole Historical Village               16            4
                    Total                                      126           27

Some of the grantee officials claimed that they were unaware of the reporting requirements, while
others erroneously claimed to have submitted reports as required. EDA regional officials stated
that they generally do not concern themselves with performance reports unless the grantee is
requesting a disbursement or monies have already been disbursed. EDA’s Public Works Manual,
Section 1.T.7., instructs the regions not to accept any requests for disbursements from grantees
with delinquent performance reports, thereby providing the agency with financial leverage to
obtain information on a project’s progress. However, 10 of the 16 Hurricane Andrew
construction projects received grant disbursements despite reporting delinquencies, including all 5
of the 9 problem projects that received disbursements.

   Few Site Visits Made to Problem Projects

We also found that EDA officials made few site visits to the Hurricane Andrew projects. The
following table shows that the agency visited the nine problem projects an average of only once
during the past five years, and that the visits were all made during two 2-day trips within a    2-
week period, February 23 and 24, and March 1 and 2, 1994. Moreover, no project was visited
more than 10 months after the award or after its scheduled construction start date. EDA travel
records indicate that regional officials made eight other visits to the Miami area between 1995 and
1997; however, there is no indication that they visited any of the delayed disaster projects on
those trips.




                                              - 16 -
U.S. Department of Commerce                                               Final Report ATL-8989-8-0001
Office of Inspector General                                                             September 1998

                                    History of EDA Site Visits
                                    on Nine Problem Projects

                                                    Award        No. of        Date of
                          Project                    Date         Site        Last Visit
                                                                 Visits
             à Seminole Historical Village         5/14/93          2           3/2/94
             Ù Miami Trade Center                   7/1/93          1          2/23/94
             Ø Dade County Zoo                      8/6/93          1          2/24/94
             ß Miccosukee Development              8/12/93          0             --
             Ü Homestead Business Incubator        9/30/93          1           3/3/94
             Û Hialeah Farmers’ Market             10/5/93          1          2/23/94
             Þ Hialeah Training Center             10/5/93          1          2/23/94
             Ý Health Industry Incubator           2/23/94          1           3/1/94
             Ú Perrine Business Incubator          2/13/95          0             --

In addition, EDA regional officials did not adequately manage problem projects when they were
eventually brought to the agency’s attention. EDA has recognized that some projects may
experience problems and hence will require special attention to (1) better assure their success and
(2) better protect the government’s interest. In fact, EDA’s Public Works Manual, Section 2.V.,
Expediting Delayed Projects, Part 2, Identification and Review of Delayed Projects, provides the
procedures that regional officials should utilize to expedite delayed projects:

  “a. The Regional Offices have the primary responsibility for identifying and taking
      measures to expedite delayed projects.

   b. Four basic options are available for the resolution of delays. They are:

       (1)    Continued negotiation with the grantee to resolve problems and
              implement the project as originally approved;
       (2)    Minor modification of the grant agreement not involving a change of scope;
       (3)    If a change in scope is involved, the project will have to be terminated;
       (4)    Termination for convenience or cause.”

Of the nine problem projects, six have not been completed. EDA terminated two of the six long
after it should have. Moreover, as of November 1997, EDA was undecided about the remaining
four, and was negotiating with these grantees about resolving the problems. Because the
Hurricane Andrew grants were made with no-year monies, the funds could have been
reprogrammed to change a project’s scope or reallocated to other disaster relief projects that
could have benefitted from the funding. To be effective in assisting with recovery efforts,

                                               - 17 -
U.S. Department of Commerce                                              Final Report ATL-8989-8-0001
Office of Inspector General                                                            September 1998

however, reprogramming needed to be timely. It is now more almost six years since the hurricane
struck and the necessity for additional disaster relief is highly questionable.

EDA regional officials generally acknowledged the problems with their managing these projects.
They attributed the problems to not having enough time to closely monitor or, otherwise, manage
the projects due to the significant surge in the workload created by Hurricane Andrew and other
disasters, which was compounded by the reductions in regional staff over the past few years.

We found, however, that the agency made little effort to follow even the most minimal monitoring
procedures, such as enforcing the requirement that the grantees submit periodic status reports.
Moreover, some of the $5 million provided to supplement EDA’s operating budget could have
been used to hire temporary employees or to contract out for additional oversight services. Had
EDA officials recognized the symptoms of problem projects early on, they might also have been
able to better focus the agency’s resources and financial leverage on assuring that those projects
were either started and completed on time or more timely terminated so that the funds could be
made available for other disaster recovery purposes. It appears, however, that the agency was
simply not prepared to effectively and efficiently manage its resources in administering the
Hurricane Andrew program.

Our observations paralleled those included in the consultant’s report. EDA’s consultant advised
the agency in 1996 about the need to develop a strategy to better manage the projects and more
actively monitor the problem projects. The consultant report stated that:

   “While EDA maintains contact with projects after they are approved, the projects that
   have performed less well suggest that more active post-funding monitoring and follow-up
   might either provide the projects with helpful guidance in implementation or assist EDA in
   deciding to terminate non-performing projects.”

The report also recommended that:

   “Criteria . . . be established to better monitor effective progress of projects. Projects that
   do not show effective progress after a midpoint evaluation under the five-year guidelines
   should be considered for termination, with funds possibly reallocated to projects that have
   demonstrated effective progress and could benefit from additional funding.”

It is clear that EDA did not heed the consultant’s advice. We believe that EDA should bring
immediate closure to its Hurricane Andrew assistance program. At the same time, the agency
should move to develop a strategy to better manage future disaster relief projects. In particular,
EDA needs to better allocate its staff resources by, among other things, recognizing and
anticipating the types of projects that are most vulnerable to delay and devoting more attention to
those projects. The agency also needs to be willing to take prompt action to refocus or terminate
a project when delays threaten to undermine or defeat its ability to provide effective and timely
disaster relief.




                                               - 18 -
U.S. Department of Commerce                                              Final Report ATL-8989-8-0001
Office of Inspector General                                                            September 1998

EDA Response

In response to the draft report, EDA stated:

   “The OIG Draft Report is incomplete/outdated with respect to its observations of EDA
   Staff Resources/Efforts Devoted to Post Award Monitoring. EDA agrees that early on,
   the inability to augment staff resources contributed to heavier workloads for existing post-
   approval management staff and the consequential reduced effectiveness of post-award
   monitoring. While EDA did have supplemental disaster S&E funding for these purposes,
   it would be appropriate for the OIG Audit Report to also note that at the same time, EDA
   and most agencies were subject to budget-driven austere administrative and operating
   constraints, which in EDA’s case resulted in frozen FTE ceilings and eventually an Agency
   RIF. Simply stated, under these circumstances, the additional funding could not
   necessarily be transformed into additional staff.”

   “EDA believes that the Audit Report should also state that as the overall budget,
   administrative, and operating environment has improved, EDA, well aware of the sort of
   deficiencies pointed out by the audit, has moved aggressively to rebuild critical staff
   capacity, particularly with respect to regional office post-approval staff. In the case of the
   Atlanta Regional Office, three new full-time project management positions were approved
   in July, 1997, filled, and their contributions are reflected in the attached August 1998
   Andrew project update table.”

OIG Comments

EDA places most of the blame for the serious deficiencies in project monitoring and management
effort by its Atlanta Regional Office on the lack of staff and other resources. We are aware that
limited staffing was a problem. But staffing alone does not explain conditions such as not
obtaining required project status reports before disbursements were made to grantees, which is
required by EDA procedures to protect the government’s financial interest. Moreover, as EDA
notes, FTE ceilings did not prevent the hiring of temporary employees or contracting out for
monitoring services.

Of greater concern, however, is EDA’s contention that it “remains sensitive to minimizing delays
in implementing projects,” yet the agency has dismissed as coincidental the fact that location and
purpose may provide the agency with indicators of problem projects. We hope that the agency
seriously reconsiders the information and recommendations offered in this report when it prepares
its audit action plan.

E. $13 Million in Disaster Monies Needlessly Tied Up

As of November 1997, more than five years after the hurricane, there was about $13 million in
unspent appropriations obligated to 11 hurricane projects, most of which was obligated to 8 of the
9 delayed projects. Of the 16 construction projects, a total of about $4.5 million was obligated to
three projects not yet started, and about $3.2 million to a project started but not yet completed.
In addition, $2.9 million remained obligated on two projects that have been terminated, and $1.7

                                               - 19 -
U.S. Department of Commerce                                          Final Report ATL-8989-8-0001
Office of Inspector General                                                        September 1998

million was obligated to four other projects that were completed with cost underruns. As shown
below, 8 of the 10 construction projects with obligations are among the nine problem projects
previously discussed. In addition, about $619,000 remained obligated but not needed on a
revolving loan fund project. The projects and unspent appropriations were as follows.

             PROJECT STATUS                                UNDISBURSED
                                                           APPROPRIATIONS

Not Started
   Miccosukee Tribe Land Development*                 $1,000,000
   Miami-Dade Community College Incubator*             1,500,000
   Miami-Dade Community College Incubator*             2,000,000
   Subtotal                                                              $4,500,000

Not Completed
   Metropolitan Dade County Zoo*                       3,198,095
   Subtotal                                                               3,198,095

Terminated
   Miami Development Authority
      International Trade Center*                     1,885,000
   Center for Health Technologies Incubator*          1,000,000
   Subtotal                                                               2,885,000

Completed
  Florida City Water System                          429,056
  Hialeah Manufacturing Training Center*       309,401
  Hialeah Farmers Market*                            272,810
  Homestead Water and Sewer System                   700,000
  Subtotal                                                                1,711,267

RLF
  Dade County Economic Research RLF                     618,750
  Subtotal                                                                  618,750

Total                                                                   $12,913,112

* Among the nine delayed construction projects.




                                             - 20 -
U.S. Department of Commerce                                             Final Report ATL-8989-8-0001
Office of Inspector General                                                           September 1998

EDA Response

In response to the draft report, EDA provided current status information on the Hurricane
Andrew projects, which is attached to its response in Appendix I. The information shows that
EDA has terminated two additional projects since November 1997 and deobligated the
$3 million awarded to them; and has deobligated another $3 million associated with the two
projects that were terminated and two that were completed as of the end of our audit, for a total
of about $6 million.

OIG Comments

In reviewing the updated project information, we would like to point out that even as of the date
of this report, three projects remain incomplete and all three are among the nine significantly
delayed projects. Based on the updated project information from EDA, there is $1,620,655 in
undisbursed funds obligated to four completed and closed out construction projects and $589,913
in undisbursed funds obligated to a revolving loan fund that should have already made all the
needed loans for hurricane recovery. The $2,210,568 for the five projects should be deobligated.

F. Recommendations

We recommend that the Assistant Secretary for Economic Development:

1. Continue EDA’s successful use of on-site planning and award selection for future disaster
   assistance efforts.

2. Ensure that EDA’s existing policies and procedures for managing and monitoring projects
   are followed in future disaster assistance efforts.

3. Develop supplemental policies and procedures for managing disaster relief projects that will
   assist the agency in identifying and more effectively monitoring those projects that are most
   vulnerable to delay.

4. Deobligate the $2,210,568 obligated to five completed projects.

Funds to Be Put to Better Use

By implementing our recommendations, EDA could put approximately $2.2 million of funds to
better use.




                                              - 21 -
